No. 20-197
IN THE

Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, ET AL.,
Petitioners,
v.
KNIGHT FIRST AMENDMENT INSTITUTE AT
COLUMBIA UNIVERSITY, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Jameel Jaffer, hereby certify that I am a member of the Bar of this Court, and
that I have this 21st day of September 2020, caused a paper copy of the Brief in
Opposition to be delivered to the Court and an electronic version of the document to be
delivered to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

/s/ Jameel Jaffer
Jameel Jaffer

